No. 19-430
In the

Supreme Court of the United States
ATHENA DIAGNOSTICS, INC., OXFORD
UNIVERSITY INNOVATION LTD., MAX-PLANCKGESELLSCHAFT ZUR FORDERUNG
DER WISSENSCHAFTEN E.V.,
Petitioners,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA
MAYO MEDICAL LABORATORIES, MAYO CLINIC,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

BRIEF OF AMICUS CURIAE
INTELLECTUAL PROPERTY OWNERS
ASSOCIATION SUPPORTING PETITIONERS
Henry Hadad
Mark J. A bate
President
Counsel of Record
Kevin H. Rhodes
A lexandra D. Valenti
Chair, Amicus Brief
James P. Breen
Committee
Goodwin Procter LLP
Intellectual Property
620 Eighth Avenue
Owners A ssociation
New York, New York 10018
1501 M Street N.W.,
(212) 813-8800
Suite 1150
mabate@goodwinlaw.com
Washington, D.C. 20005
(202) 507-4500
Counsel for Amicus Curiae
November 1, 2019
292179

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICUS CURIAE . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

The Mayo/Alice Framework Has Been
Applied Inconsistently Resulting in an
Undesirable Lack of Predictability . . . . . . . . . . . 3

II. The Claims in a Recent Federal Circuit
Decision as Compared to Those in Mayo
Highlights the Inconsistency of Results
Under Mayo/Alice  . . . . . . . . . . . . . . . . . . . . . . . . . 6
III. The United States Patent and Trademark
Office’s Own Guidance Illustrates the
Uncertainty and Unpredictability . . . . . . . . . . . . 8
IV. Consistency in Patent Eligibility Standards
for Diagnostic Claims Is an Important
Issue to the Grow ing Biotechnolog y
Industry in This Country . . . . . . . . . . . . . . . . . . 12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

ii
TABLE OF CITED AUTHORITIES
Page
CASES
Alice Corp. v. CLS Bank Int’l,
573 U.S. 208 (2014)  . . . . . . . . . . . . . . . . . . . . . . . passim
Athena Diagnostics, Inc. v.
Mayo Collaborative Servs., LLC,
915 F.3d 743 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . 4, 5
Diamond v. Chakrabarty,
447 U.S. 303 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Genentech, Inc. v. Chiron Corp.,
112 F.3d 495 (Fed. Cir. 1997) . . . . . . . . . . . . . . . . . . . 10
In re Cray Inc.,
871 F.3d 1355 (Fed. Cir. 2017) . . . . . . . . . . . . . . . . . . . 3
Interval Licensing LLC v. AOL, Inc.,
896 F.3d 1335 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . . 5, 6
Invitrogen Corp. v. Biocrest Mfg., L.P.,
327 F.3d 1364 (Fed. Cir. 2003) . . . . . . . . . . . . . . . . . . 10
Mars Inc. v. H.J. Heinz Co.,
377 F.3d 1369 (Fed. Cir. 2004) . . . . . . . . . . . . . . . . . . 10
Mayo Collaborative Servs. v.
Prometheus Labs., Inc.,
566 U.S. 66 (2012) . . . . . . . . . . . . . . . . . . . . . . . . passim

iii
Cited Authorities
Page
Thales Visionix Inc. v. United States,
850 F.3d 1343 (Fed. Cir. 2017) . . . . . . . . . . . . . . . . . . 11
TQP Dev., LLC v. Intuit Inc.,
No. 2:12-CV-180-WCB, 2014 WL 651935
(E.D. Tex. Feb. 19, 2014) . . . . . . . . . . . . . . . . . . . . . . . 11
Vanda Pharm. Inc. v.
West-Ward Pharm. Int’l Ltd.,
887 F.3d 1117 (Fed. Cir. 2018)  . . . . . . . . . . . . . . . 6, 7, 8
STATUTES
35 U.S.C. § 101  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5, 7
Sup. Ct. R. 37.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Sup. Ct. R. 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITIES
Dav id O. Taylor, G u e s t Pos t o n Pa t e n t
Eligibility and Investment: A Survey (Mar.
6, 2019), https://patentlyo.com/patent/2019/03/
patent-eligibility-investment.html  . . . . . . . . . . .  12-13
Dav id O. Taylor, Pat ent Eli gibility an d
Investment, Cardozo L. Rev. (forthcoming),
available at https://papers.ssrn.com/sol3/
papers.cfm?abstract_id=3340937 . . . . . . . . . . . . . . . 12

iv
Cited Authorities
Page
Gugliuzza, The Federal Circuit as a Federal Court,
54 Wm. & Mary L. Rev. 1791, 1835 (2013) . . . . . . . . . 3
S. Rep. 97–275, 97th Cong., 1st Sess. 5  . . . . . . . . . . . . . . 3
Steve Brachman, Patent-Ineligibility of Medical
Diagnostics, Life Sciences Discover ies
Arrests U.S. Progress (Jan. 7 2018), https://
w w w.ipwatchdog.com /2018/01/07/patentineligibility-medical-diagnostics-life-sciencesdiscoveries/id=90805/ . . . . . . . . . . . . . . . . . . . . . . . . . 12
Sumant Ugalmugale et al., Biotechnology Market
Size (Jan. 2019), https://www.gminsights.com/
industry-analysis/biotechnology-market . . . . . . . . . 12
The State of Patent Eligibility in America:
Part 1 Before the S. Comm. On Intellectual
Property, 116th Cong. (2019) . . . . . . . . . . . . . . . . 12, 13
United States Patent and Trademark Office,
Subject Matter Eligibility (last visited Oct.
21, 2019), https://www.uspto.gov/patent/lawsand-regulations/examination-policy/subjectmatter-eligibility . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

1
INTEREST OF THE AMICUS CURIAE1
Intellectual Property Owners Association (IPO) is a
trade association representing companies and individuals
in all industries and fields of technology who own or
are interested in intellectual property rights. IPO’s
membership includes more than 175 companies and more
than 12,000 individuals who are involved in the association
through their companies or as inventor, author, executive,
law firm, or attorney members. IPO regularly represents
the interests of its members before Congress and the
United States Patent and Trademark Office (USPTO)
and has filed amicus curiae briefs in this Court and other
courts on significant issues of intellectual property law.
This brief was approved by the IPO Board of Directors. 2
As owners of intellectual property, IPO members
believe intellectual property rights promote the innovation,
creativity, and investment necessary to address major
global challenges and improve lives. IPO strives to
maximize innovation across all industries and to improve
lives throughout the world by fostering high quality
intellectual property rights and effective, harmonized
systems to obtain and enforce them on behalf of all IPO
members.
1. Pursuant to Rule 37.6, amicus affirms that no counsel for a
party authored this brief in whole or in part, nor has any counsel,
party, or third person other than amicus or its counsel made
any monetary contribution intended to fund the preparation or
submission of this brief. Pursuant to Rule 37.2, counsel of record
for all parties received notice of amicus’s intent to file this brief at
least ten days before the due date. Both parties have consented to
the filing of this brief.
2. IPO procedures require approval of positions in briefs by a
two-thirds majority of directors present and voting

2
SUMMARY OF THE ARGUMENT
Section 101 of the Patent Act states: “Whoever
invents or discovers any new and useful process, machine,
manufacture, or composition of matter, or any new and
useful improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of this title.” 35
U.S.C. § 101. With that broadly worded statutory language,
Congress intended patentable subject matter to “include
anything under the sun that is made by man.” Diamond v.
Chakrabarty, 447 U.S. 303, 309 (1980). However, the Court
has long recognized an “important implicit exception”
under which laws of nature, abstract ideas, and natural
phenomena are not eligible for patent protection. See
Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566
U.S. 66, 70 (2012). In Mayo and Alice Corp. v. CLS Bank
Int’l, 573 U.S. 208 (2014), this Court established a twostep framework for determining whether a claim satisfies
§ 101 and is therefore patent eligible. First, a court must
“determine whether the claims at issue are directed to
one of [the three] patent-ineligible concepts.” Alice, 573
U.S. at 217. If so, then the court must determine whether
additional elements of the claim “transform” the claim into
patent eligible subject matter such that the claim provides
“more than” the ineligible concept itself. Id.
T his test has proven to be inconsistent and
unpredictable in its application. Different results have been
reached in cases involving what appear to substantively
similar patent claims. Even guidance from the U.S.
Patent and Trademark Office has not ameliorated the
uncertainty in this area of the law. Clear legal precedent
is needed to ensure that patentees and potential accused
infringers alike can better assess and predict the merits

3
of infringement and validity claims. This case presents
an opportunity for the Court to settle this area of the
law and introduce much-needed predictability back into
§ 101 jurisprudence, and therefore the Court should grant
Petitioner’s certiorari petition.
ARGUMENT
I.

The Mayo/Alice Framework Has Been Applied
Inconsistently Resulting in an Undesirable Lack
of Predictability

The current Mayo/Alice framework has been
applied inconsistently by panels of the Federal Circuit
and in district courts around the country. The resulting
unpredictability is at counter-purposes with the raison
d’être for the Federal Circuit— the development of a
uniform and consistent body of federal patent law that can
be applied by district courts nationwide in a predictable
manner. 3 “If patent appeals are no more predictable than
throwing darts, . . . the patent system suffers.”4
In this case, both the panel majority and dissent
seemed to agree that, as a general matter, the eligibility
of diagnostic method claims benefits the public. Judge
3. S.Rep. 97–275, 97th Cong., 1st Sess. 5, reprinted in 1982
U.S. Code Cong. & Ad. News 11, 15 (“The creation of the Court of
Appeals for the Federal Circuit will produce desirable uniformity
in this area of the law [patent law].”); In re Cray Inc., 871 F.3d 1355,
1360 (Fed. Cir. 2017) (noting that the Federal Circuit “has a mandate
to achieve uniformity in patent matters”).
4. Gugliuzza, The Federal Circuit as a Federal Court, 54 Wm.
& Mary L. Rev. 1791, 1835 (2013).

4
Newman, in dissent, explained that when patent eligibility
standards disincentivize the development of diagnostic
methods, “[t]he loser is the afflicted public, for diagnostic
methods that are not developed benefit no one.” Athena
Diagnostics, Inc. v. Mayo Collaborative Servs., LLC,
915 F.3d 743, 763 (Fed. Cir. 2019). Similarly, the majority
noted that “providing patent protection to novel and nonobvious diagnostic methods would promote the progress
of science and useful arts.” Id. at 753 n.4. Despite this
seeming agreement, the majority and dissent reached
different conclusions as to the eligibility of the claims at
issue. The majority explicitly named Mayo as the reason
for this disparity: “[W]hether or not we as individual
judges might agree or not that these claims only recite
a natural law, . . . the Supreme Court has effectively told
us in Mayo that correlations between the presence of
a biological material and a disease are laws of nature
purely conventional or obvious pre-solution activity is
normally not sufficient to transform an unpatentable law
of nature into a patent-eligible application of such a law.”
Id. (alterations and quotations omitted).
As Judge Newman noted in her dissent, the problem
centers on the inconsistency that has resulted from the
application of Mayo/Alice. “This court’s decisions on
the patent-ineligibility of diagnostic methods are not
consistent.” Id. at 757. For example, Judge Newman
argued, the panel decision below “is not consistent with
. . . Rapid Litigation Management [Ltd. v. CellzDirect,
Inc.], 827 F.3d [1042, 1048 (Fed. Cir. 2016)], where the court
held that although the general type of cell was known, and
the manipulation of these specific cells was conducted in
a conventional manner, the overall method was eligible
under Section 101.” Id. at 762. With inconsistency

5
comes unpredictability, Judge Newman explained, and
“a disincentive to the development of new diagnostic
methods.” Id. at 763. As she concluded, “[t]he judicial
obligation is to provide stable, consistent application
of statute and precedent, to implement the legislative
purpose.” Id. Mayo/Alice is currently hampering that
prerogative.
Other Federal Circuit decisions have highlighted the
inconsistency and unpredictability of § 101 decisions since
this Court announced the Mayo/Alice framework half a
decade ago. For instance, in Interval Licensing LLC v.
AOL, Inc., 896 F.3d 1335 (Fed. Cir. 2018), the claims were
directed to a method of displaying images on a computer
screen in a way that does not interfere with the user’s
primary activity. Under Mayo/Alice step one, the court
found that “the recited claims are directed to an abstract
idea because they consist of generic and conventional
information acquisition and organization steps that are
connected to, but do not convert, the abstract idea—
displaying a second set of data without interfering with
a first set of data—into a particular conception of how to
carry out that concept.” Id. at 1346. After finding under
step two that “nothing in the claim converts the abstract
idea to an inventive concept,” the court held the claims
ineligible under § 101. Id. at 1346-48. Judge Plager filed a
separate opinion, beginning with reference to the Mayo/
Alice test: “Today we are called upon to decide the fate
of some inventor’s efforts, whether for good or ill, on the
basis of criteria that provide no insight into whether the
invention is good or ill.” Id. at 1348 (emphasis added).
Although Judge Plager concurred in the “carefully
reasoned opinion by [his] colleagues in the majority,”
he noted that “the state of the law is such as to give

6
little confidence that the outcome is necessarily correct”
because it “renders it near impossible to know with any
certainty whether the invention is or is not patent eligible.”
Id. Judge Plager therefore dissented from the Federal
Circuit’s “continued application” of what he referred to
as “this incoherent body of doctrine.” Id.
II. The Claims in a Recent Federal Circuit Decision
as Compared to Those in Mayo Highlights the
Inconsistency of Results Under Mayo/Alice
The fine line between patent eligible and ineligible
claims under Mayo/Alice is illustrated by comparing this
Court’s decision in Mayo and the Federal Circuit’s decision
in Vanda Pharm. Inc. v. West-Ward Pharm. Int’l Ltd.,
887 F.3d 1117 (Fed. Cir. 2018). The claims in Vanda and
Mayo were both directed toward methods of treatment
involving examining a patient’s ability to metabolize a
drug and using that information to adjust the patient’s
treatment plan accordingly.
In Mayo, this Court considered the eligibility of claims
for methods of treatment, which included determining the
level of a drug in the patient and adjusting the dosage
administered accordingly. The Court held that the claims
were directed toward a patent ineligible concept, and that
the claims did not pass what is now referred to as step two
of the Mayo/Alice test because “[t]he process that each
claim recites tells doctors interested in the subject about
the correlations that the researchers discovered.” Id. at
78. In particular, the Court found, “[t]he ‘administering’
step simply refers to the relevant audience, namely doctors
who treat patients with certain diseases with thiopurine
drugs.” Id. The other steps “simply tell a doctor about

7
relevant natural laws” and “to determine the level of
the relevant metabolites in the blood, through whatever
process the doctor or the laboratory wishes to use.” Id. at
78-79. Summarizing, the Court found that “the three steps
simply tell doctors to gather data from which they may
draw an inference in light of the correlations.” Id. at 79.
Accordingly, the Court held that the claims “add nothing
significant beyond the sum of their parts taken separately”
and “are not sufficient to transform unpatentable
natural correlations into patentable applications of those
regularities.” Id. at 80.
In Vanda, the Federal Circuit considered the patent
eligibility of a treatment method under § 101. Similar to
Mayo, the treatment method included a step in which the
dosage given to the patient was adjusted based on the
patient’s ability to metabolize a certain compound. As
the Vanda court explained, “[c]laim 1 requires specific
steps: (1) determining the patient’s CYP2D6 metabolizer
genotype by (a) obtaining a biological sample and (b)
performing a genotyping assay; and (2) administering
specific dose ranges of iloperidone depending on the
patient’s CYP2D6 genotype.” Thus, both sets of claims
required correlating the ability of a patient to metabolize a
drug with the proper dosage of treatment for that patient.
Despite this similarity, the Federal Circuit found the
claims in Vanda to be patentable, even though this Court
had previously held in Mayo that the similar claims at
issue there were not.
The similar ity between the claims— and the
inconsistency between the two decisions—is particularly
evident when comparing the Mayo “wherein” clauses to
the Vanda “if” and “wherein” clauses. Both tell a physician

8
performing the method how to adjust the patient’s
treatment based on the information obtained. In Mayo, the
Court found these clauses to be a mark against the claims
in terms of patent eligibility, reasoning that they “simply
tell a doctor about the relevant natural laws, at most
adding a suggestion that he should take those laws into
account when treating his patient” by adjusting the dose.
566 U.S. at 78. In Vanda, the dose adjustment steps are
the very reason the Federal Circuit distinguished Mayo:
they “recite the steps of carrying out a dosage regimen
based on the results of genetic testing.” 887 F.3d at 1135.
III. The United States Patent and Trademark Office’s
Own Guidance Illustrates the Uncertainty and
Unpredictability
Indicative of the unpredictability in assessing patent
eligible subject matter in the diagnostic testing field are
the examples provided by the United States Patent and
Trademark Office (USPTO).
Since 2014, the USPTO has periodically issued
guidance to examiners on the application of Mayo/Alice. 5
This guidance includes certain examples that “illustrat[e]
exemplary subject matter eligibility analyses of claims.”
Id. In the set of examples issued between December 16,
2014 through December 15, 2016 (attached as Exhibit A),
one example in particular highlights the unpredictability
and arbitrary implementation of the framework. In
5. See United States Patent and Trademark Office, Subject
Matter Eligibility (last visited Oct. 21, 2019), https://www.uspto.
gov/patent/laws-and-regulations/examination-policy/subjectmatter-eligibility.

9
example 29, the USPTO describes a fictional autoimmune
disease called “julitis.” Ex. A at 9-16. Of the seven example
claims, two are instructive here. Claim 1 of the example
recites:
A method of detecting JUL-1 in a patient, said
method comprising:
a. obtaining a plasma sample from a human
patient; and
b. detecting whether JUL-1 is present in the
plasma sample by contacting the plasma sample
with an anti-JUL-1 antibody and detecting
binding between JUL-1 and the antibody.
Id. at 10. Claim 2 of the example is identical to claim 1 but
for one additional step:
A method of diagnosing julitis in a patient, said
method comprising:
a. obtaining a plasma sample from a human
patient;
b. detecting whether JUL-1 is present in the
plasma sample by contacting the plasma sample
with an anti-JUL-1 antibody and detecting
binding between JUL-1 and the antibody; and
c. diagnosing the patient with julitis when the
presence of JUL-1 in the plasma sample is
detected.
Id. (emphasis added).

10
Claims 1 and 2 seem strikingly similar, the only
difference being the additional “diagnosing” step of claim.
Moreover, the transitional term “comprising,” used in
both example claims, is an inclusive phrase that does not
exclude additional, unrecited elements or method steps.
See, e.g., Mars Inc. v. H.J. Heinz Co., 377 F.3d 1369, 1376
(Fed. Cir. 2004) (“[L]ike the term ‘comprising,’ the terms
‘containing’ and ‘mixture’ are open-ended.”); Invitrogen
Corp. v. Biocrest Mfg, L.P., 327 F.3d 1364, 1368 (Fed. Cir.
2003) (“The transition ‘comprising’ in a method claim
indicates that the claim is open-ended and allows for
additional steps.”); Genentech, Inc. v. Chiron Corp., 112
F.3d 495, 501 (Fed. Cir. 1997) (“‘Comprising’ is a term of
art used in claim language which means that the named
elements are essential, but other elements may be added
and still form a construct within the scope of the claim.”).
Accordingly, claim 1 encompasses within its scope not
only methods that include the delineated steps, but other
unclaimed steps such as, for example, the diagnosing step
of claim 2. In other words, claim 2 is narrower than but
wholly encompassed within claim 1.
Notwithstanding the similarities between claims 1
and 2, the USPTO’s guidance indicates that the broader
claim 1 would be patent eligible, but the narrower claim
2 would not. Id. at 11-12. Specifically, under the Mayo/
Alice test, the Patent Office concluded that claim 1 was not
directed to a law of nature and thus was patentable based
on step 1. Id. at 11. However, the USPTO concluded that
the additional diagnosing step of claim 2 was directed to
a law of nature, and therefore proceeded to step 2 of the
analysis. Id. at 12. Under step 2, the USPTO determined
that the additional elements of claims 2—that is, the
very same elements that were found to be patent eligible

11
in claim 1—did not sufficiently transform the claim and
therefore it was not patentable subject matter. Id.
The USPTO’s differing recommendations with
respect to these two claims is perplexing. Claim 2 adds
a claim limitation, making it narrower than claim 1, yet
the USPTO concluded that claim 2 would not be subject
matter eligible under Mayo/Alice, seemingly just for its
inclusion of the word “diagnosing,” even though its scope
falls within the broader, patent eligible claim 1. Common
sense, and long-standing cannons of patent law, would
dictate that if the broader claim is directed to patent
eligible subject matter, so too should be the narrower
claim. See, e.g., Thales Visionix Inc. v. United States, 850
F.3d 1343, 1349 n.1 (Fed. Cir. 2017) (stating that “[b]ecause
we hold the independent claims patent eligible, we do not
reach [the] issue [of eligibility of the dependent claims]”);
TQP Dev., LLC v. Intuit Inc., No. 2:12-CV-180-WCB, 2014
WL 651935, at *7 (E.D. Tex. Feb. 19, 2014) (“Because the
Court finds that claim 1 is patent eligible under section
101, it follows that the rest of the disputed claims, which
are dependent on claim 1, are patent eligible under section
101 as well.”). Even more puzzling, claim 1 is patent eligible
under the USPTO’s guidance, yet the elements of claim
1 were found not to transform claim 2 into patent eligible
subject matter.
Needless to say, this example highlights the challenges
with the current Mayo/Alice framework. Even experts in
the USPTO are having difficulty with the current test.

12
IV. Consistency in Patent Eligibility Standards for
Diagnostic Claims Is an Important Issue to the
Growing Biotechnology Industry in This Country
A 2019 Global Market Insights Report 6 reported that
the biotechnology industry is expected to achieve a nearly
10% compound annual growth rate from 2018 to 2024,
reaching a market size of over $775 billion. And based
on statistics published by the USPTO, the biotechnology
sector experienced a more than 25% increase in patent
grants in just a five-year period between 2010 and 2015.
As Judge Newman noted in her dissenting opinion,
this growing life sciences industry is “plead[ing] for
consistency in judge-made law.” Athena, 915 F.3d at 762.
Many legal schola rs and commentators have
acknowledged the potentially detrimental impact
patentability uncertainty can have on investment in
technology and innovation.7 For instance, a 2019 survey 8
6. See Sumant Ugalmugale et al., Biotechnology Market
Size (Jan. 2019), https://www.gminsights.com/industry-analysis/
biotechnology-market
7. See, e.g., The State of Patent Eligibility in America: Part
1 Before the S. Comm. On Intellectual Property, 116th Cong. (2019)
(statement of David Kappos, Former United States Patent and
Trademark Office Director); Steve Brachman, Patent-Ineligibility
of Medical Diagnostics, Life Sciences Discoveries Arrests U.S.
Progress (Jan. 7 2018), https://www.ipwatchdog.com/2018/01/07/
patent-ineligibility-medical-diagnostics-life-sciences-discoveries/
id=90805/.
8. See David O. Taylor, Patent Eligibility and Investment,
Cardozo L. Rev. (forthcoming), available at https://papers.ssrn.
com/sol3/papers.cfm?abstract_id=3340937; see also David O. Taylor,
Guest Post on Patent Eligibility and Investment: A Survey (Mar.

13
by Professor David O. Taylor, SMU Dedman School of
Law, found that 74% of the investors agreed that patent
eligibility is an important consideration in firms’ decisions
whether to invest in companies developing technology.
Professor Taylor further found that 62% of the investors
agreed that their firms were less likely to invest in a
company developing technology if patent eligibility
standards would render patents unavailable. Overall, he
concluded that the life sciences industry would be the
most negatively affected as more investors in that space
indicated that the elimination of patents would either
somewhat decrease or strongly decrease their firms’
interest in investing in life science companies.
Likewise, former USPTO Director David Kappos said
before the U.S. Senate Sub-Committee on Intellectual
Property:
Our current patent eligibility law truly is a
mess. The Supreme Court, Federal Circuit,
district courts, and USPTO are all spinning
their wheels on decisions that are irreconcilable,
incoherent, and against our national interest …
our current constricted approach to Section 101
is undermining investment.9
The message is clear: patent eligibility standards
matter, and consistency is desperately needed.
6, 2019), https://patentlyo.com/patent/2019/03/patent-eligibilityinvestment.html.

9. The State of Patent Eligibility in America: Part 1 Before the
S. Comm. On Intellectual Property, 116th Cong. (2019) (statement
of David Kappos, Former United States Patent and Trademark
Office Director).

14
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully Submitted,
Henry Hadad
Mark J. A bate
President
Counsel of Record
Kevin H. Rhodes
A lexandra D. Valenti
Chair, Amicus Brief
James P. Breen
Committee
Goodwin Procter LLP
Intellectual Property
620 Eighth Avenue
Owners A ssociation
New York, New York 10018
1501 M Street N.W.,
(212) 813-8800
Suite 1150
mabate@goodwinlaw.com
Washington, D.C. 20005
(202) 507-4500
Counsel for Amicus Curiae
November 1, 2019

APPENDIX

1a
Appendix OF THE BOARD
APPENDIX1 — MEMBERS
OF DIRECTORS INTELLECTUAL PROPERTY
OWNERS ASSOCIATION
Eric Aaronson
Pfizer Inc.

Cara Coburn
Roche Inc.

Brett Alten
Hewlett Packard
Enterprise

Karen Cochran
Shell Oil Company

Ron Antush
Nokia Inc.
Estelle Bakun
Exxon Mobil Corp.
Scott Barker
Micron Technology,
Inc.
Thomas R. Beall
Corning
Incorporated
Steve Caltrider
Eli Lilly and Co.
John J. Cheek
Tenneco Inc.

Buckmaster de Wolf
General Electric Co.
Robert DeBerardine
Johnson & Johnson
Anthony DiBartolomeo
SAP SE
Daniel Enebo
Cargill, Inc.
Yen Florczak
3M Innovative
Properties Co.
Louis Foreman
Enventys
Scott M. Frank
AT&T

1. IPO procedures require approval of positions in briefs by
a two-thirds majority of directors present and voting.

2a
Appendix
Darryl P. Frickey
Dow Chemical Co.
Gary C. Ganzi
Evoqua Water
Technologies, LLC

Laurie Kowalsky
Koninklijke Philips
N.V.
William Krovatin
Merck & Co., Inc.

Tanuja Garde
Raytheon Co.

Michael C. Lee
Google Inc.

Krish Gupta
Dell Technologies

Kelsey L. Milman
Caterpillar Inc.

Henry Hadad
Bristol-Myers
Squibb Co.

Micky Minhas
Microsoft Corp.

Bill Harmon
Uber
John Harris
Ford Global
Technologies LLC
Heath Hoglund
Dolby Laboratories
Thomas R. Kingsbury
Bridgestone
Americas, Inc.

Jeffrey Myers
Apple Inc.
Ted Naccarella
InterDigital Corp.
Ross Oehler
Johnson Matthey
Inc.
Ken K. Patel
Procter & Gamble
Co.

3a
Appendix
KaRan Reed
BP America, Inc.
Paik Saber
Medtronic, Inc.
Matthew Sarboraria
Oracle USA Inc.

Brian Suffredini
United Technologies
Corp.
Gillian Thackray
Thermo Fisher
Scientific Inc.

Manny Schecter
IBM Corp.

Joerg Thomaier
Bayer Intellectual
Property GmbH

Jessica Sinnott
DuPont

Mark Wadrzyk
Qualcomm Inc.

Thomas Smith
GlaxoSmithKline

Stuart L. Watt
Amgen, Inc.

Todd N. Spalding
Alexion
Pharmaceuticals

Ariana Woods
Capitol One

John Stewart
Intellectual Ventures
Management Corp.
Daniel Staudt
Siemens Corp.

